WAIVER

SUPREME COURT OF THE UNITED STATES
19-71

Supreme Court Case No._

Gerald Sensabaugh , Kimber Halliburton, et al.

(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:

| Please enter my appearance as Counsel of Record for all respondents.

 

 

 

=) There are multiple respondents, and T do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

Kimber Halliburton, in her official capacity as Director of Schools and the Washington County Board of Education

= | am a member of the Bar of the Supreme Court of the United States.
(J Lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. . —
signal, ey. dria es
Date. December 27, 2019
K. Erickson Herrin

(Type or print) Name -
Mr Ms. (Mrs. Miss
Herrin, McPeak & Associates

515 E. Unaka Avenue
City & State YOhnson City, Tennessee
(423) 929-7113

 

 

Firm

 

Address

 

rip 31601
lisa@hbm-lawfirm.com

Phone Email
A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

cc: Alan L. Cates, M.E. Buck Dougherty, III, Jeffrey M. Ward
